U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 17, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Robinson v. Department of Education, No. 19-5 12
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 5,
2019. The government's response is now due, after one extension, on December 20, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including January 21, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-05 12
ROBINSON, ANTHONY
DEPARTMENT OF EDUCATION

QUINN B. LOBATO
LOBATO LAW
210 GRISDALE HILL
RIVA, MD 21140
240-305-4770
QUINN.LOBATO@GMAIL.COM

